                                                            IG-99-038




AUDIT
                             PERFORMANCE EVALUATION PLAN FOR THE
REPORT                         EARTH OBSERVING SYSTEM DATA AND
                           INFORMATION SYSTEM CORE SYSTEM CONTRACT

                                        September 8, 1999




                                 OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-1000


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.



Acronyms

ECS            Earth Observing System Data and Information System Core System
EOS            Earth Observing System
EOSDIS         Earth Observing System Data and Information System
ESDIS          Earth Science Data and Information System
GAO            General Accounting Office
OIG            Office of Inspector General
PEP            Performance Evaluation Plan
PBC            Performance-Based Contracting
SOW            Statement of Work
W                                                                        September 8, 1999


TO:            Y/Associate Administrator for Earth Science
               100/Director, Goddard Space Flight Center

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final report on the Performance Evaluation Plan for the Earth Observing
               System Data and Information System Core System (ECS) Contract
               Assignment Number A9902600
               Report Number IG-99-038

The subject final report is provided for your use. Please refer to the Results in Brief for the
overall audit results. We have incorporated your comments into the final report, as
appropriate, and included them in their entirety as a report appendix. The recommendation
will remain open for reporting purposes until corrective action is completed. Please notify
us when action has been completed on the recommendation, including the extent of testing
performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Daniel J. Samoviski,
Program Director for the Earth and Space Science Audits, at (301) 286-0497, or
Mr. Robert Williams, Audit Program Manager, at (818) 354-9769. We appreciate the
courtesies extended to the audit staff. See Appendix E for the report distribution.

[original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
                                    2


bcc:
JPL/180-300/Audit Program Manager
Y/Audit Liaison Representative
                                  NASA Office of Inspector General

IG-99-038                                                                          September 8, 1999
 A9902600

                        Performance Evaluation Plan for
                      the Earth Observing System Data and
                 Information System Core System (ECS) Contract


Introduction

The NASA Office of Inspector General is performing an audit of the Earth Observing System
Data and Information System Core System (ECS). The ECS constitutes a major component
of the Earth Observing System Data and Information System (EOSDIS). The EOSDIS will
be a geographically distributed system that will support the operation and management of the
Earth Observing System (EOS) in-orbit payloads and U.S. observatories and facilitate a wide
range of scientific research on the Earth System and interactions of its components. The ECS
consists of a flight system1 and a science system.2 The overall audit objective is to evaluate
NASA and contractor program and project management processes for the ECS, including
oversight and administration of related contracts. During the audit, we identified a condition
related to the ECS contract. Due to pending negotiations on a major contract modification,
we are providing this report for management’s immediate attention. Other aspects of the
objectives may be addressed in another report. See Appendix A for details on our scope and
methodology and Appendix B for prior audit coverage.

NASA awarded contract NAS5-60000 to Hughes Applied Information Systems, Inc.3 in
March 1993 for $766 million. The 10-year cost-plus-award-fee contract is for the
development and operation of the ECS. The current contract value is $868.6 million, an
increase of $102.6 million from the original contract value.

Results in Brief

The ECS contractor’s performance is not linked to the contract’s Performance Evaluation
Plan. The current award fee plan relies on subjective evaluations by Government
personnel as the basis for award fee determinations. NASA generally considers this type
of evaluation less desirable than a performance-based evaluation plan. The current plan
does not contain objective measures of performance and, therefore, does not sufficiently

1
  The flight system will command and control the EOS spacecraft and instruments.
2
  The science system will process, archive, and distribute science data.
3
  As a result of the December 1997 merger with Hughes Electronics, Raytheon Corporation became the
prime contractor for ECS; however, the Government has not officially recognized this change because the
contractor has only recently submitted its novation package to the Administrative Contracting Officer at the
Defense Contract Management Command for approval.
link performance objectives to the award fee. Consequently, the contractor could receive
inappropriate award fee payments. NASA is currently restructuring the contract to
address technical, cost, and schedule problems and has already restructured two key
aspects of the contract to incorporate the precepts of performance-based contracting
(PBC)4 in the statement of work (SOW) and quality assurance plan. However, ECS
program and contracting officials have not revised the Performance Evaluation Plan
(PEP) to reflect a performance-based approach to evaluating contractor performance.
Given the pending negotiation to definitize several outstanding change orders, the
Contracting Officer has a significant opportunity at this time to incorporate changes into
the PEP.

Background
The ECS contract has been problematic with significant delays. The entire ECS as
originally envisioned is no longer affordable. Consequently, Goddard Space Flight
Center (Goddard) procurement officials issued a Request for Proposal December 8, 1998,
to restructure the contract. The new Approach, Option A+, is intended to rescope the
contract to meet the highest priority requirements for data products and services while
saving projected overrun costs as feasible. The procurement strategy includes the
following:

•   Revising the SOW and Functional and Performance Requirements Specification to
    reflect the current program requirements. The contract has been without an up-to-date
    technical, cost, and schedule baseline for more than a year. The contract restructuring
    will result in a new baseline for managing the contract and measuring performance.

•   Obtaining an estimate-to-complete proposal based on the revised SOW and
    specification. The project has 10 outstanding, undefinitized contract actions issued in
    response to programmatic changes. An estimate-to-complete proposal will eliminate
    the need to negotiate the old change orders, because all the changes will be
    incorporated into the revised requirements.

Earth Science Data and Information System (ESDIS) project officials and Goddard
procurement officials are evaluating the contractor’s proposal for the contract
modification. The contractor has proposed an increase of about $100 million to the
contract. Procurement officials expect to definitize the modification prior to the
scheduled August launch of the Terra spacecraft.




4
 Performance-based contracting means structuring all aspects of an acquisition around the purpose of the
work to be performed as opposed to either the manner by which the work is to be performed or broad and
imprecise statements of work.


                                                    2
Need for Revised Performance Evaluation Plan

Finding. Earth Science Data and Information System project management and Goddard
contracting officials have not revised the ECS contract Performance Evaluation Plan to
reflect the PBC performance requirements detailed in the revised SOW. Revision has not
occurred because project management and contracting officials did not recognize the
importance of ensuring that the Performance Evaluation Plan is congruent with the
performance requirements of the revised contract SOW. As a result, NASA may not be
able to effectively motivate the contractor to complete the work at an acceptable level,
and the contractor could be awarded fees5 that do not reflect its achievement of contract
requirements.

Requirements for a Performance-Based Contract. Federal Acquisition Regulation
Subpart 37.601 states that performance-based contracting methods are intended to ensure
that required performance meets certain quality levels and that total payment, including
performance incentives, is related to the degree that services performed meet contract
standards. Performance-based contracts: (a) describe requirements in terms of needed
results rather than the methods of performing the work; (b) use measurable performance
standards and quality assurance surveillance plans; (c) specify procedures for reducing fee
when services are not performed or do not meet contract requirements; and (d) include
performance incentives where appropriate.

In March 1996, the NASA Administrator issued direction on how performance-based
contracting techniques should be implemented. The Government defines performance-
based contracting as contracting for results, not just best efforts. All aspects of an
acquisition are structured around the purpose of the work performed. PBC techniques
include: using objective, measurable performance requirements and quality standards in
developing SOWs; selecting contractors using performance as a consideration;
determining contract type and incentives in accordance with a fair assessment and
assignment of performance risk; and performing contract surveillance and administration
for insight only into essential areas of contractor performance while conserving
Government resources. Policy and training modules for developing performance-based
SOW's are in NASA Program Directive 5600.2B, "Statement of Work – Guidance for
Writing Work Statements," December 1997.

Implementation of Performance-Based Contracting. The ECS contract awarded in
March 1993 was not originally a performance-based contract. We commend Goddard
officials for restructuring the contract to incorporate performance-based principles.
However, the PEP remains surveillance intensive, and award fees are based on the
subjective evaluation of contractor performance. The project management office uses the
PEP to carry out the award fee determination activities required by the contract. The PEP
contains no measurable performance standards that link to the performance requirements

5
 Available award fee at contract inception was $86.9 million. This amount may change as a result of the
contract restructuring.


                                                    3
detailed in the revised SOW and payment of award fee. A NASA Headquarters
performance-based contracting expert stated that the PEP needs improvement because it
does not tie to performance and lacks measurable performance standards. For example,
the PEP lists “Resource Efficiency – Did the contractor use manpower and equipment in
an economic and effective manner?” as a general evaluation criterion. Once evaluation
factors are selected, standards should be developed for measuring contractor performance.
This evaluation factor has no performance standard, such as an acceptable employee
turnover rate. See Appendix C for details on current evaluation criteria.

Change in Contracting Approach. PBC is a change in business approach for NASA,
including the Goddard contracting office. Perhaps more important, PBC represents a
major culture shift for program office personnel. The ECS contract was awarded in 1993,
predating PBC. Therefore, the contract reflects a common business paradigm of that
time; that is, the Government makes the decisions and the contractor works under
continuous oversight. The PBC concept changes management's approach from providing
oversight to gaining insight.6 The Government identifies a requirement, develops
standards for measurement, and allows the contractor to determine how to meet the
requirement. The ECS systems under development (flight and science systems) have only
recently reached the level of maturity to allow the Government to generate clearly defined
performance requirements. Change takes place slowly; therefore, the contracting officials
did not recognize the importance of ensuring that the PEP is congruent with the
performance standards of the revised contract SOW. The contracting officer, the
contracting officer’s technical representative, and project managers focused on
implementing the PBC concept in the contract SOW and the Quality Assurance Plan,
allowing the contractor to determine how to meet the requirements. However, project
management and Goddard contracting officials did not update the PEP, in part, because
they placed emphasis on solving technical problems associated with system development
as discussed below.

System Development Priorities. Project management officials focused their attention on
software development priorities. Both ECS systems under development have experienced
delays and cost overruns. For example, in September 1998, Raytheon terminated the
original flight operating system development after several years of work because of the
lack of sufficient progress. Subsequently, Raytheon began development of a new system.
Project management officials monitored the new software development closely as their
top priority and believed that the ECS contract was sufficient to support this change in
development activities. Also, project management officials have had to emphasize
correcting technical problems within both systems throughout their development.

Award Fee Payments. Under the ECS contract, the project management office bases
award fee on a subjective evaluation of the contractor's performance. In the absence of
measurable performance standards in the PEP, the contractor may not be motivated to
provide quality performance and the project management office could award fees that do
6
 Oversight required formal Government involvement and approval of contractor actions. With insight,
however, the Government monitors the contractor’s effort.


                                                   4
not reflect contractor achievement of the requirements.
Recommendation, Management’s Response, and Evaluation of
Response

The Director, Goddard Space Flight Center should direct the Earth Science Data
and Information System project office, in close coordination with the procuring
contracting officer, to revise the Performance Evaluation Plan to link award fee
payments to specific cost, schedule, and performance objectives in the restructured
ECS contract.

Management’s Response. Concur. The Director stated that the plan will be revised
with an objective of making it a motivator for contractor performance. Management
anticipates that final corrective action will be completed by November 1, 1999.
Additionally, management offered some comments regarding statements made in the
audit report. The complete text of management’s comments is in Appendix D.

Evaluation of Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.




                                            5
             Appendix A. Objectives, Scope, and Methodology

Objective

Our overall audit objective is to evaluate NASA and contractor program and project
management processes for the ECS. For this portion of the audit, we reviewed project
management office plans for restructuring the contract to determine whether performance-
based principles were included in the ECS contract and associated documents.

Scope and Methodology

During the audit we:

   •   Interviewed Earth Science and Data Information System representatives and
       procurement personnel to obtain background information and documents.
   •   Reviewed the contractor’s ECS Restructure Proposal for contract NAS5-60000,
       dated February 1999.
   •   Visited the contractor’s facility and interviewed the management staff.
   •   Toured the Goddard Distributed Active Archive Center and interviewed the
       manager.
   •   Reviewed Federal Acquisition Regulation Subpart 37.602, “Elements of
       Performance Based Contracting.”
   •   Reviewed the NASA Administrator’s guidance for implementing performance-
       based contracting, dated March 1996.
   •   Reviewed NASA Procedures and Guidelines 5600.2B, “Statement of Work -
       Guidance for Writing Work Statements,” December 1997.
   •   Reviewed the “NASA Award Fee Contracting Guide,” December 2, 1997.
   •   Reviewed contractor award fee history.
   •   Consulted NASA procurement official regarding performance-based contracting.

Management Controls Reviewed

We reviewed the following management controls:

   •   NASA Procedures and Guidelines 7120.5A, “NASA Program and Project
       Management Processes and Requirements,” April 3, 1998.
   •   NASA Procedures and Guidelines 5300.4, “Management of Government Quality
       Assurance Functions for NASA Contracts,” December 24, 1997.
   •   EOS program mission statement and organizational structure for administering the
       ECS contract.
   •   Draft “Earth Science Data and Information System Project Plan,” February 1, 1999.
   •   NASA guidance for performance-based contracting.




                                           6
                                                                           Appendix A

We considered controls adequate except that controls needed to be strengthened to ensure
that performance-based contracting principles are applied to all elements of the ECS contract.
Details are in the finding section of the report.

Audit Field Work

We performed the audit field work for this portion of the audit from March through
June 1999 at Goddard and NASA Headquarters. We conducted the audit in accordance with
generally accepted government auditing standards.




                                            7
                Appendix B. Summary of Prior Audit Coverage


General Accounting Office (GAO)

“GAO Testimony Before the Committee on Science, House of Representatives-Earth
Observing System, Cost and Research Issues,” March 6, 1996, GAO/T-NSIAD-96-
116. EOS has three major components: (1) a system of satellites to collect key climate-
related data; (2) a data and information system to operate the satellites and process,
archive, and distribute the data; and (3) teams of scientists to develop algorithms for
converting sensor data into useful information and for conducting research using the
information.

Congress was concerned about the affordability of EOS; therefore, NASA changed the
program’s emphasis in fiscal year 1992 from a complete Earth system-measuring program
to a measurement program. The EOS was redesigned, and the estimated cost through
2000 was reduced to $11 billion. The program’s budget through 2000 was further
reduced in fiscal year 1993 to $8 billion and to $7.25 billion in fiscal year 1995. NASA
recognized that the program as designed in early 1995 was not affordable in an
environment of declining budgets and developed a strategy to build an EOS research
community.

Office of Inspector General

The NASA Office of Inspector General (OIG) conducted three audits relating to the ECS
contract.

“Subcontract Management of the EOSDIS Core System Contract,” Report Number
GO-95-010, September 26, 1995. The OIG addressed four concerns: (1)
subcontractors’ award fees for cost control were inconsistent; (2) subcontractors’
performance for various events was not properly documented; (3) subcontractor costs
were billed in excess of funding limitations; and (4) performance measurement system
reviews of subcontractors were not performed. The report contained recommendations to
help manage EOSDIS subcontractors. Planned actions were considered responsive to the
intent of the recommendations.

“Subcontract Management of the EOSDIS Core System Contract Award Fee
Determinations,” Report Number GO-97-006, August 22, 1994. The report addressed
two concerns: (1) award fees for cost control were in excess of actual contractor
performance and (2) the ECS contractor’s performance measurement system was not
reviewed. The report contained recommendations to control award fees and to review the
contractor’s performance measurement system. Planned actions were considered
responsive.




                                           8
                                                                       Appendix B


“EOSDIS Core System Contract Status,” Assignment Number A-HA-97-054. At the
time of the review, the ECS was having problems and was behind schedule. To correct
the problems, management took the following actions:

   •   Issued a stop-work-order to Hughes Electronics. The Distributed Active Archive
       Centers at Goddard and Langley completed the work.
   •   Devised a point system to establish criteria for measuring performance.




                                          9
                   Appendix C. Performance Evaluation Plan

The Performance Evaluation Plan, dated May 22, 1997, for the ECS contract lacks
standards for measuring performance. The PEP states that its purpose is to provide both
general and specific criteria to serve as a basis for the periodic evaluation of the
contractor’s performance. Award fee is determined on the basis of this evaluation.

General Evaluation Criteria

General evaluation criteria are presented in Section 6.0 of the PEP. The criteria are
structured as questions with no measurable standard for performance:

           a.   Resource Efficiency – Did the contractor use manpower and equipment
                in an economic and effective manner?
           b.                Ingenuity and Innovativeness – Did the contractor see and
                develop original solutions to problems that resulted in savings of time,
                money, manpower, or improvement to performance or software,
                hardware, and/or system operations?

Performance Evaluation Categories

Section 4.1 of the PEP contains four performance evaluation categories: Technical and
Operational Performance, Business Management, User Satisfaction, and Cost Control.
The specific criteria within each category are in sections 7.1, 7.2, 7.3, and 7.4 of the PEP.

Section 7.1, “Technical and Operational Performance,” states that the contractor will be
evaluated against meeting specification requirements and elements such as:

           a.   Utilization of competent and experienced personnel throughout the
                contracting effort, and the extent to which these people have been used
                to provide effective management, technical continuity, and technical
                quality;
           b.   Response to change orders and technical direction including resolution
                of action items.

These criteria and evaluation categories do not comply with the payment structure for
performance-based contracts as discussed in the finding segment entitled, “Requirements
for a Performance-Based Contract.”




                                                  10
Appendix D. Management’s Response




               11
